Case No. 20-06263
IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
HAIDER SALAH ABDULRAZZAK
Petitioner,
vs.
BRENT FLUKE, Warden at Mike Durfee State Prison, JASON R.
RAVNSBORG, Attorney General of the state of South Dakota,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
EIGHTH CIRCUIT COURT OF APPEALS
PETITION FOR REHEARING OF DENIAL
ISSUANCE OF PETITION FOR CERTIORARI
HAIDER SALAH ABDULRAZZAK
Mike Durfee State Prison
1412 Wood Street,
Springfield, SD 57062-2238
Petitioner/ Pro Se
JASON R. RAVNSBORG
State of South Dakota Attorney General
QUINCY R. KJERSTAD
South Dakota State Assistant Attorney General
Office of State Attorney General
1302 E. Highway 14, Suite 1
Pierre, South Dakota 57501-8501
Tel. (605)773-3215
E-mail: quincv.kierstad@state.sd.us
Attorney for Respondents

Received
MAR I I 2021

QUESTION(S) PRESENTED
1. Whether there is any reasonable likelihood of Court changing its position and grant
Certiorari, in light of new evidence about the district judge performance.
2.

Where a new opinion entered by the district judge on Petition for habeas corpus filed
pursuant to 28 U.S.C. §2254, reflect pattern of procedurally error opinions, Petitioner
is entitled to at the minimum summary reversal with instruction of new district judge
appointed in light of the dissented opinion entered in N. v. Russell, All U.S. 328, 96
S. Ct. 2709, 49 L. Ed. 2d 534 (1976)

TABLE OF COTENTS
I. STATEMENT OF THE CASE (SUMMARY OF BACK-GROUND)

1

II.

4

REASONS FOR GRANTING THIS PETITION FOR REHERING
A)

NEW OPINION REFLECTS PATTERN OF JUDICIALLY ERROR OPINIONS

4

1. Abdulrazzak v. Fluke, No. 4:20-cv-04154-RAL, 2020 U.S. Dist. LEXIS 229622
(D.S.D., December 7, 2020).......................................................................... 4
2. Decor/1/. Young, 2019 U.S. Dist. LEXIS 115370, 2019 WL 3035499
(D.S.D., July 11, 2019) ...................................................................
B)
C)
III.

PROCEDURAL GROUNDS
STANDARD OF REVERSAL BY THIS COURT
CONCLUSION

6

9
11
13

INDEX OF APPENDIXES
Appendix U

CERTIFICATION OF
APPROCIATION ISSUED TO
PETITIONER BY KBR Inc.
ON
, 2004.
O C t sFO Vo

Appendix V

CERTIFICATION OF
APPROCIATION ISSUED TO
PETITIONER BY KBR Inc.
ON iTi’L V^kU^y , 2006.

Appendix W

RECOMMENDATION LETTER
ISSUED TO PETITIONER BY
HIS SUPERVISOR IN KBR INC.,
ON
OF JUNE, 2006.

TABLE OF AUTHORITIES CITED
CASE
Abdulrazzak v. Fluke, 2019 U.S. Dist. LEXIS 196590,
WL 5964974 (D.S.D. Nov. 13, 2019).........................
Abdulrazzak v. Fluke, 2020 U.S. Dist. LEXIS 229622 (D.S.D., Dec. 7, 2020)

PAGE#
4, 12
4, 5, 6,
8, 13

Abdulrazzak v. Fluke, 2019 U.S. Dist. LEXIS 214376 (D.S.D., Dec. 12, 2019)

13

Abdulrazzak v. SD. Bd. ofPardons & Paroles, 2020 SD 10,
940 N.W. 2d 647 (SD 2020)..............................................

4

Abdulrazzak v. SD. Bd. ofPardons & Paroles, 2020 U.S. LEXIS 4749,
L. Ed. 2d 47 (2020) ..............................................................................

4

Ayestas v. Davis, 138 S. Ct. 1080, 200 L. Ed. 2d 376 (2018)

11

Bracy v. Gramely, 520 U.S. 899, 117 S. Ct. 1793, 138 L. Ed. 2d 97 (1997)

10

Britt v. North Carolina, 404 U.S. 226, 92 S. Ct. 431, 30 L. Ed. 2d 400 (1971)

10

Bunden v. Zant, 489 U.S. 433, 111 S. Ct. 862, 112 L. Ed. 2d 962 (1991)

11

Coleman v. Thompson, 501 U.S. 722, 111 S. Ct. 2546, 115 L. Ed. 2d 640 (1991)

4,5

Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 110 S. Ct. 2447,
110 L. Ed. 2d 359 (1990)..............................................................

5

Day v. McDonough, 547 U.S. 198, 126 S. Ct. 1675,
164 L. Ed. 2d 376 (2006)........................................

5, 8

Decory v. Young, 2019 U.S. Dist. LEXIS 115370,
2019 WL 3035499 (D.S.D., Jul. 11, 2019).............

6, 7, 9, 13

Dep’t. of Homeland Sec. v. Thuraissigiam, 140 S. Ct. 1595,
207 L. ED. 2d 427 (2020) ..................................................
Dowty v. B.O.P., 2015 U.S. Dist. LEXIS 7672,
2015 WL 269387 (D.S.D. 2015).....................

11, 14

9, 13

Gardener v. California, 393 U.S. 367, 89 S. Ct. 580, 21 L. Ed. 2d 601 (1969)

10

Griffin v. Illinois, 351 U.S. 12, 76 S. Ct. 585, 100 L. Ed. 89 (1956)

10

TABLE OF AUTHORITIES CITED
CASE

PAGE#

Haines v. Kerner, 404 U.S. 519, 92 S. Ct. 594, 30 L. Ed. 2d 652 (1972)

10

in re Murchison, 349, U.S. 133, 75 S. Ct. 623, 99 L. Ed. 942 (1955)

9

Jackson v. Ault, 452 F.3d 734 (8th Cir. 2006) ............................. :...

8

James v. Kentucky, 466 U.S. 341, 104 S. Ct. 1830, 80 L. Ed. 2d 346 (1984)

5,6

Longv. District ofIowa, 385 U.S. 192, 87 S. Ct. 362, 17 L. Ed. 2d 290 (1966)

10

N. v. Russell, 427 U.S. 328, 96 S. Ct. 2709, 49 L. Ed. 2d 534 (1976)

9

Slack v. McDaniel, 529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)

5

Thompson v. Keohane, 561 U.S. 99, 116 S. Ct. 457, 133 L. Ed. 2d 383 (1995)

11

Townsend v. Sain, 372 U.S. 293, 83 S. Ct. 745, 9 L. Ed. 2d 770 (1963)

10

United States v. Tucker, 78 F. 3d 1313 (8th Cir. 1996).........................

12

Walker v. Martin, 562 U.S. 307, 131 S. Ct. 1120, 179 L. Ed. 2d 62 (2011)
STATUTES & RULES

6
PAGE#

28 U.S.C. §2244

8

28 U.S.C. §2254

1,4,6

SDCL §21-27-3.1

7

SDCL §21-27-3.3

7,8

SDCL §22-24A-3

1

USCS Sec. 2254 R. 4

10

USCS Supreme Ct. R. 10

12, 14

USCS Supreme Ct. R. 16.1

12, 14

ON PETITION FOR REHEARING THE DENIAL OF ISSUANCE
OF PETITION FOR CERTIORARI (Case No. 20-06263)
I.

STATEMENT OF THE CASE ^SUMMARY OF BACKGROUND!:
Petitioner Haider Salah Abdulrazzak (“Petitioner” or “Abdulrazzak”), a state of South

Dakota prison inmate, was charged and convicted by state jury with possession of 14 counts of
child pornography in violation to SDCL§22-24A-3(3). Petitioner however was sentenced for
Counts I-VII to 21 years with 13 years suspended on one condition with no official sentence on
Counts VIII-XIV (Appendix A).
South Dakota State Supreme Court affirmed the conviction on direct appeal on its merits
on January 14, 2013 (Appendix B), followed by timely Petition for habeas corpus in state court
raising 76 grounds for relief. The state court appointed an attorney to Petitioner who filed an
amended Petition raising 7 grounds for relieves.
Petitioner later on filed his pro se grounds for relief without the assistance of his
appointed attorney and a hearing was held in states court on September 20, 2016 and December
13, 2016, at which testimony under oath and other evidence were taken.
The State court however denied Petitioner’s Application for relief on all grounds
(Appendix C - E). The State court also denied Petitioner’s timely Application for Probable Cause
to appeal to the State Supreme Court on the merits (Appendix F - H), followed by Petitioner
filing timely Application for Certificate of Probable Cause within the State Supreme court, which
denied the application on the merits (Appendix I) on January 18, 2019.
Petitioner promptly mailed his Petition for Habeas Corpus under 28 U.S.C. §2254, on
January 31, 2019, to the Federal District Court of South Dakota. Petitioner however wrote some
of his claims on plain papers and asked the district court to consider them (Appendix J).

1

The district court direct service upon Respondents (Appendix K) and Respondents filed
response asking the court to deny Petitioner Habeas application on the merits and Petitioner
resist. Petitioner also asked the court to direct Respondents to provide him with a copy of the
records within their possession.
The district court however did not direct so and entered a decision considering only 4
claims for relieves on November 13, 2019 (Appendix L). The court within its opinion also
refused to issue a Certificate of Appealability (COA) and Petitioner’s motion for reconsideration
asking the court to provide him with a copy of his state habeas hearing transcripts and to
consider the claims he exhausted in state courts and submitted them on plain papers, which both
were denied in a new opinion entered on December 12, 2019 (Appendix M).
The district court submitted that the other claim dismissed (for failure to exhaust) without
determination to a cause and prejudice and that the habeas transcript were presented although
Petitioner did not receive a copy and nothing in the records reflects that the transcripts were ever
generated or ever submitted to the court or cited (Appendix R). The district court also denied
Petitioner’s Motion to Compel to provide its records that support the judge opinion that such
state habeas transcripts were presented. (Appendix Q)
Petitioner filed Notice to Appeal to the Eighth Circuit Court (Application for COA) and
the district court granted him application to proceed without payment of fees and the COA was
denied on April 27, 2020. (Appendix N)
Petitioner’s filed Petition for Rehearing which attached to affidavit (Appendix S)
declaring under the penalty of perjury he did not receive his state habeas transcripts and that all
the other claims were exhausted by his appointed attorney in state courts or by him as pro se. The
rehearing however was denied on June 19, 2020 (Appendix O). The Court also denied

2

Petitioner’s Motion to Compel to provide its records which support the existence of the
transcripts of the state habeas hearing (Appendix P).
Petitioner filed Petition for Certiorari in this Court raising 9 questions related to the
adjudication of his habeas petition, including denial of procedural rules that this Court granted as
a matter of right to all individuals proceeding in Federal Habeas Corpus.
These procedural rules included Petitioner’s right to have his state habeas transcripts
provided to him as determined by this Court on multiple cases (Question 1), the failure by the
district court to rule over all exhausted claims or otherwise permit him amend his claims on
proper forms (Qtn. 2), failure to permit submission of brief on the subject of cause and prejudice
(when the district court determined that some of Petitioner’s claims were not exhausted)
(Question 3) and Petitioner is entitled to assignment of new district judge (Qtn. 9).
Petitioner later on (on January 5, 2021) mailed to this Court motion for summary reversal
on these procedural grounds to save judicial time and due to the fact that this court affirmably on
multiple cases concluded that Petitioner is entitled to his state habeas transcript.
Within that motion, Petitioner supplement the records with new opinion filed by the state
district court and by the same district judge (Hon. Roberto A. Lange), indicating another failure
to recognized the procedural rules of the case and prejudice, examine if the state rules were
firmly established and regularly followed (Appendix T)
The opinion filed by Judge Lange also indicated that the judge provided Petitioner with
misleading information by dismissing one of his habeas petitions, directing Petitioner to file new
Petition just to be denied by the same judge later as a second or successive petition.
This Court denied Petitioner’s Application for Writ of Certiorari on January 11, 2021,
and this Petition for Rehearing timely followed and filed.

3

II.

REASONS FOR GRANTING THIS PETITION FOR REHEARING:
A) NEW OPINION REFLECTS PATTEREN OF JUDICIALLY ERROR OPINIONS:
1. Abdulrazzakv. Fluke, No. 4:20-cv-04154-RAL, 2020 U.S. Dist. LEXIS
229622 (D.S.D. December 7, 2020).
Petitioner would submit that the records of Abdulrazzakv. Fluke, 2019 U.S. Dist. LEXIS

196590, 2019 WL 5964974 [*14 -*15] (D.S.D. Nov. 13, 2019) (Appendix L) also reflect a ruling
on other Petition for Habeas Corpus Petitioner filed challenging his Parole revocation results
(district case No. 4:19-CV-04075-RAL). The district court (Hon. Judge Roberto A. Lange)
dismissed it without prejudice for failure to exhaust state remedies which was pending at time in
front of the State of South Dakota Supreme Court.
Petitioner upon the conclusion of the State Supreme Court affirming the dismissal, See
Abdulrazzak v. SD. Bd. ofPardons & Paroles, 2020 SD 10, 940 N.W. 2d 674 (SD 2020), and
denying rehearing on March 31, 2020, filed a motion to reopen the dismissed case since there
was no more pending proceeding in state court rendering the case to be exhausted by the
Procedural Default Clause. See Coleman v. Thompson, 501 U.S. 722, 732, S. Ct. 2546, 115 L.
Ed. 2d 640 (1991) (“the exhaustion requirement is satisfied where the petitioner failed to fairly
present his claims to the highest state court and is without an “available state remedies by which
to do so”).
The district court (Judge Roberto A. Lange) dismissed the motion without prejudice to
permit Petitioner file new amended case (Appendix Q). Petitioner at that time also had Pending
Petition for certiorari in front of this Court (Case No. 19-8541). See Abdulrazzak v. SD Bd. of
Pardons & Paroles, 2020, U.S. LEXIS 4749, 208 L. Ed. 2d 47 (U.S. Oct. 5, 2020)
This Court denied the Petition for certiorari on October 5, 2020, and Petitioner promptly,
on October 21, 2020, filed new amended Petition for habeas corpus under 28 U.S.C. §2254,

4

challenging the proceeding and decision of revoking his parole revocation which was docketed
in the district court as (4:20-cv-04154-RAL).
The district court (Judge Roberto A. Lange) on December 7, 2020, however issued an
opinion dismissing the new petition as a second or successive without obtain permission from the
Eight Circuit Court of Appeal, although the same judge dismissed the original without prejudice
for failure to exhaust. See Abdulrazzak v. Fluke, 2020 U.S. Dist. LEXIS 229622 (D.S.D. Dec. 7,
2020) (Appendix T), concluding that the dismissal of the first one (without prejudice) is
dismissal on the merits.
Judge Lange again issued an opinion that is procedurally error and in contradict to clearly
established procedural rules as determined by this Court that that (“dismissal without prejudice”
is a dismissal that does not “operate as an adjudication upon the merits). Cooter & Gell v.
Hartmarx, 496 U.S. 384, 396, 110 S. Ct. 2447, 110 L. Ed. 2d 359 (1990). See also Slack v.
McDaniel, 529 U.S. 473, 487, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)
(“None of the United States Supreme Court cases have ever suggested that a prisoner
whose petition was dismissed for failure to exhaust state remedies, and then did exhaust those
remedies and return to the federal court, was by such action filing a successive petition”).
Judge Lange again ignored the rules controlling the cause and prejudice which this court
instructed the lower courts to follow when a case is procedurally defaulted since this Court
submitted that. Coleman, 501 U.S. at 732.
Judge Lange also did not “accord the parties fair notice and opportunity to present their
possession” as this Court determined as a must. See Day v. McDonough, 547 U.S. 198, 210, 126
S. Ct. 1675, 164 L. Ed. 2d (2006).
Neither Judge Lange examine the state procedural rules that used to dismiss Petitioner’s
habeas petition was clearly established or regularly followed. See James v. Kentucky, 466 U.S.

5

341, 348, 104 S. Ct. 1830, 80 L. Ed. 2d 346 (1984):
(“Despite the deference due to state court’s determination that a pleading was untimely
filed, a federal district court is required to review the rule used to make that determination to
ascertain whether it is “firmly established and regularly followed”).
Judge Lange should be aware of the proceeding controlling filing after the original filing
was dismissed without prejudice for failure to exhaust. See also Walker v. Martin, 562 U.S. 307,
321, 131 S. Ct. 1120, 179 L. Ed. 2d 62 (2011) (Federal Courts must carefully examine state
procedural requirements to ensure that does not operate to discriminate against claims of federal
rights).
Within the courts opinion, Judge Lange submitted:
(Abdulrazzak’s prior petition regarding his parole revocation was dismissed by this court
on the merits. This court found that Abdulrazzak had not exhausted his claims and his failure “to
timely file a notice of appeal of the Board decision in state court is a procedural default may bar
a subsequent §2254 petition ...).
Abdulrazzak, 2020 U.S. Dist. LEXIS 229622 [*5] (D.S.D. Dec. 7, 2020) (Appendix T).
This opinion plainly contradicts with this Court opinion in Cooter as discussed above.
Even if these opinions do not constitute ignorance about the law, the filing of two opinions
contradicts with each other reflect bias and state of mind by Judge Lange to deny Petitioner any
relief under any circumstances even by misleading Petitioner to file another habeas petition
2)

Decory v. Young, 2019 U.S. Dist. LEXIS 115370, 2019 WL 3035499 (D.S.D., Jul.
11,2019)

Petitioner made further researches on Judge Lange filed opinions and discovers at least
two cases at which he showed ignorant about the procedural controlling federal habeas petitions.
The circumstances of Decory’s case reflects that he filed his petition for habeas corpus
under 28 U.S.C.§ 2254 on January 14, 2019. Id at [* 1]. Decory did not exhaust his state
remedies. Id at [*2], He however filed direct appeal in the State Supreme Court but later he filed

6

motion to dismiss and which the State Supreme Court granted on June 30, 2016. Id at [*2].
Decory also did not file habeas petition in state court. Id at [*2],
In ruling whether Decory still have state remedies to be exhausted, District Judge Lange
cited the old statute of SDCL§ 21-27-3.1 *, to conclude that Decory can file his state petition at
anytime, and as the controlling state statute related to the statute of limitation in state courts
However, the context of the statute SDCL§ 21-27.3.1, was repealed on July 1, 2012.
Since July 1, 2012, the new text of SDCL§ 21-27-3.1 provides: “Proceeding under this
chapter cannot be maintained while an appeal from the applicant’s conviction and sentence is
pending or during the time within which such appeal may be perfected”. SDCL§ 21-27.3.1.
SDCL§ 21-27, which control the proceeding of habeas corpus petition in state courts has
since (July 1, 2012) been amended to include two-year statute of limitations. See SDCL§ 21-273.3, which provides: (“two-year statute of limitation applied to all applications for relief under
this chapter”).
Judge Lange submitted:
“Although Decory dismissed his direct appeal of his judgment of conviction and the time
to file direct appeal has long since passed, he still has the opportunity to present the claims he
makes in his §2254 petition to the state court by way of a state habeas petition”.
2019 U.S. Dist. LEXIS 115370, 2019 WL 3035499 at [*4],
Judge Lange dismissed Decory’s habeas petition for failure to exhaust to permit him to
go back to the state court to exhaust his state remedies.
With all due respect to Judge South Dakota District Judge Roberto A. Lange, his
adjustment to Decory’s Petition was procedurally wrong for multiple reasons;
i

The old statute of SDCL 21-27-3.1 provided that “An application for relief under this chapter
may be filed at anytime except that proceedings thereunder cannot be maintained while an appeal
from the applicant’s conviction and sentence is pending or during the time within such appeal
may be perfected” . This language was repealed on July 1, 2012.
1

First) considering the fact that Decory’s judgment of conviction became final on June
30, 2016, when the State Supreme Court granted his motion to dismiss his direct appeal, Decory
had two years to file his state habeas petition under SDCL §21-27-3.3, which would be long
expired on (or about) June 30, 2018.
Second) Decory’s §2254, petition was time barred pursuant to the one-year statute of
limitations under the Antiterrorist and Effective Death Penalty Act (AEDPA). 28 U.S.C. §2244
(d)(1) and (2), since his conviction became final on June 30, 2016, without filing a state habeas
petition to toll the period and he filed his federal habeas on January 2019.
Even if Decory was to be permitted to go back to state court to exhaust his state remedies,
when Judge Lange issued his opinion on July 11, 2019, his Federal Petition will be still time
barred under the AEDPA, since filing such like petition will have no effect of the one-year
federal statute of limitation which is long since expired on June 30, 2017, (one year from the
dismissal of state direct appeal). See Jackson v. Ault, 452 F.3d 734, 735 (8th Cir. 2006)
“It does not matter that [petitioner] ... state post conviction relief application was timely
filed under [state] law. The one-year AEDPA time limit for federal habeas filing cannot be tolled
after it has expired” Id.
Petitioner would submit that the proper remedies for Judge Lange to follow in Decory’s
case was longtime highlighted by this Court in its opinion in Day v. McDonough, 547 U.S. 198,
210, 126 S. Ct. 1675, 164 L. Ed. 2d 376 (2006) which held “Before acting on its own intiative to
dismiss a state prisoner’s habeas petition for lack of timeliness, a court must accord the parties
fair notice and an opportunity to present their positions”. Judge Lange failed to follow the correct
procedural rules as determined by this Court.
Petitioner respectfully would ask this Court to take a judicial notice of Judge Lange
ruling in the matter of Abdulrazzak v. Fluke, No. 4:20-cv-04154-RAL, 2020 U.S. Dist. LEXIS

8

229622 (D.S.D. Dec. 7, 2020) and Decory v. Young, 2019 U.S. Dist. LEXIS 115370, 2019 WL
3035499 (D.S.D. Jul. 11,2019).
These are not the only habeas cases decided by Judge Lange where he ignored the federal
habeas procedural rules. See also Dowty v. B.O.P., 2015 U.S. Dist. LEXIS 7627, 2015 WL
269387 (D.S.D. Jan. 21, 2015) at which he ignored the procedural rules controlling procedural
default cause and prejudice when he dismissed claims as unexhausted. Petitioner respectfully
would ask this Court to take a judicial notice of Dowty’s case.
With all due respect to district Judge Roberto Antonio Lange, because of his ignorant
about the laws/rules controlling federal habeas corpus petitions affirmed by his recent rulings on
Abdulrazzak’s petitions (including issuing two opinions contradicts with each other in order to
deny him a relief) and other individuals as well, Petitioner would submit he is entitled to reversal
with instructions that new district judge be assigned to his case. See N. v. Russell, 427 U.S. 328,
344, 96 S. Ct. 2709, 49 L. Ed. 2d 534 (1976) (Justice Stewart dissent):
A judge ignorant of the law is simply incapable of performing his duties. If he is aware of
his incompetence, such a judge will perhaps instinctively turn to the prosecutor for advice and
direction. But such a practice no more than compounds the due process violation).
Within the dissented opinion, the Court further noted (... There can be no meaningful
constitutional difference between a trial that is fundamentally unfair because of the judge’s
possible bias, and on that is fundamentally unfair because of the judge ignorance of the law). N.,
427 U.S. at 345. Citing in re Murchison, 349 U.S., 133, 136, 75 S. Ct. 623, 99 L. Ed. 942 (1955)
B)

Petitioner therefore would submit that under there circumstances, including denying

him access to his state habeas transcripts constitute a denial of procedural error resulted from
district judge ignorant about federal habeas records at which he must possess and provide to
petitioners in order to rule on habeas petition.

9

Petitioner would submit that this Court had ruled that individuals are entitled to their
habeas transcripts as a matter of right. See Townsend v. Sain, 372 U.S. 293, 319, 83 S. Ct. 745, 9
L. Ed. 2d 770 (1963):
(A district court sitting in habeas corpus clearly has the power to compel production of
the complete state-court record. Ordinary such record — including the transcript of testimony ...
and other pertinent documents — is indispensable to determining whether the habeas applicant
received a full and fair state-court evidentiary hearing resulting in reliable findings ... of course,
if because no record can be obtained, the district judge has no way of determining whether a full
and fair hearing in finding of relevant fact was vouchsafed ...).
See also Griffin v. Illinois, 351 U.S. 12, 16-18, 76 S. Ct. 585, 100 L. Ed. 891 (1956)
(finding denial of free transcripts to the indigent to be invidious discrimination in light of greater
access enjoyed by the affluent); Long v. District ofIowa, 385 U.S. 192*194, 87 S. Ct. 362, 17 L.
Ed. 2d 290 (1966) (State must provide transcript for post conviction proceeding and holding that
a court’s failure to provide a defendant with any portion of a habeas transcript was error); Britt v.
North Carolina, 404 U.S. 226, 227, 92 S. Ct. 431, 30 L. Ed. 2d 400 (1971) (the state must
provide an indigent defendant with the transcript is needed for an effective defense or appeal);
Gardener v. California, 393 U.S. 367, 370, 89 S. Ct. 580, 21 L. Ed. 2d 601 (1969) (state must
provide habeas corpus transcript); Bracy v. Gramely,

899 U.S. 117, S. Ct. 1793, 1799, 138

L. Ed. 2d 97 (1997) (district court abused its discretion in denying discovery in habeas).
This is not the only due process denied to Abdulrazzak by Judge Lange. The judge also
failed to liberally construe his claims as directed by this Court. See Haines v. Kemer, 404 U.S.
519, 520, 92 S. Ct. 594, 30 L. Ed 2d 652 (1972) (Federal courts construe liberally pro se
petitions) and USCS Sec. 2254 Cases R. 4, which directed that the district court to promptly
examine the case and permit Petitioner to file amended petition on proper forms provided by the
court, where the court became aware that Petitioner submitted on plain paper together with his
petition. (Appendix J) (See Qtn. 2 of Petition for Certiorari argd. p. 14-15).

10

Judge Lange also failed to take de novo review to the circumstances surrounded the
interrogation within Petitioner’s resident as directed by this Court . Instead Judge Lange’s
opinion was merely rewriting the state court conclusions of law.
Judge Lange also failed to acknowledge facts mention within the state court fact finding
(Appendix D) when determining the finding of in custody and ignoring the totality of the
circumstance as found within the state court habeas trial within the Appendix3.
These are not the only procedural errors committed by Judge Lange due to his ignorant
about the rules controlling §2254 petitions. Other procedural errors discussed within Petitioner’s
Application for Certiorari from this Court, at which constitute significant procedural errors
require reversal by this Court.
C)

STANDARD OF REVERSAL BY THIS COURT

In Ayestas v. Davis, 138 S. Ct. 1080, 1089 n.2, 200 L. Ed. 2d 376 (2018), this Court
submitted:
(The United States Supreme Court may review the denial of a Certificate of Appealability
(COA) by lower courts. When lower courts deny a COA and the Court concludes that their
reason for doing so was flawed, the court may reverse and remand so that the correct legal
standard may be applied).
Recently this Court reaffirmed this standard. See Dep’t. OfHomeland Sec. v.
Thuraissigiam, 140 S. Ct. 1595, 1992, 207 L. Ed. 2d 427 (2020) (We reverse for procedural
errors).
2 See Thompson v. Keohane, 561 U.S. 99, 112, 116 S. Ct. 457, 133 L. ED. 2d 383 (1995) (“In
contrast to the inquiry of the totality of circumstances, which if factual, the inquiry of the given
circumstances surrounding the interrogation, would reasonable person felt he or she not at liberty
to terminate the questions and leave “present a mixed question n of law and fact” qualified for de
novo review”).
3 See Bunden v. Zant, 489 U.S. 433, 437, 111 S. Ct. 862, 112 L. Ed . 2d 962 (1991) (per curiam)
(Court of Appeals failure to explain why it ignored state fact finding favorable to petitioner
required reversal)
11

USCS Supreme Ct. R. 10(c) provided as a reason for this Court to invoke its jurisdiction,
in part that (... United States Court of Appeals ... has decided an important federal question in a
way that conflicts with relevant decisions of this Court). Id. Furthermore, USCS Supreme Ct. R.
16.1 permits this Court to summary dispose a case.
Petitioner listened to Justice Barrett’s confirmation hearing in the Congress. Petitioner
remembers Justice Barrett referring that when a lower court reached a conclusion or opinion
contradicts with the Supreme Court opinion, the Supreme Court must revere.
Based on the multiple procedural errors committed by Judge Lange which reflect
ignorant about the procedural rules controlling habeas petitions and his recent opinion in ruling
over one of Petitioner’s cases at which he dismissed Petitioner’s Habeas for failure to exhaust
state remedies related to his Parole revocation See Abdulrazzak v. Fluke, 2019 U.S. Dist. LEXIS
196590, 2019 WL 5964974 (D.S.D. Nov. 13, 2019) (Appendix L), denying Petitioner’s motion
to reopen that case (Appendix Q) and dismissing the newest Petitioner’s habeas corpus which
filed as direct by the judge himself as a second or successive habeas (Appendix T).
Judge Lange also falsely claimed that the state habeas transcripts were provided to
petitioner where he knew as a fact that even him do not possess these transcripts (Appendix P, Q,
and R) reflect a patron of bias when determining Petitioner’s cases and another patron of
ignorant about the federal rules when ruling upon habeas cases.
In United States v. Tucker, 78 F.3d 1313, 1324 (8th Cir 1996), the court noted:
“Under 28 U.S. C.S. §455(a) disqualification is required if a reasonable person who know
the circumstances would question the judge impartiality, even though no actual bias or prejudice
has been shown. 28 U.S.C.S. §455(a) was designed to promote public confidence in the integrity
of the judicial process by replacing the subjective in his opinion standard with an objective test.
In determination, then, whether remand to a different judge is warranted to achieve the goal of
ensuring the appearance of impartiality, the court applies an objective standard of reasonableness
of bias or partiality that matters, not actual bias).

12

Judge Lange also showed pattern of ignorance about the proceeding controlling Federal
Habeas Corpus petitions filed by state inmates as discussed above within his opinions filed in
Abdulrazzakv. Fluke, 2020 U.S. Dist. LEXIS 229622 (D.S.D., Dec. 7, 2020) (Appendix T);
Decory v. Young, 2019 U.S. Dist. LEXIS 115370, 2019 WL 3035499 (D.S.D., Jul. 11, 2019) and
Dowty v. B.O.P, 2015 U.S. Dist. LEXIS 7627, 2015 WL 269387 (D.S.D., Jan. 21, 2015).
Within the case beforehand, Judge Lange showed a repeated ignorant about the rules
controlling federal habeas cases. The Judge submitted:
(... he alludes to over 90 grounds for relief requested in exhibits to his petition in his first
filed case. This court did not address these claims because Abdulrazzak had only exhausted the
first four claims in his state habeas petition ...)
Abdulrazzakv. Fluke, 2019 U.S. Dist. LEXIS 214376 (D.S.D., Dec. 12, 2019) (Appendix M)
This ruling ignoring the procedural requirements controlling cases when federal court faced
with unexhausted claims is similar to the other cases as discussed above and unfamiliarity with
the cause and prejudice standards.
Petitioner who is citizen of Iraq, who helped the United States government and people in the
fight against terrorist groups, has lost his life in his own country. Petitioner suffered torturing by
these groups in order to keep U.S. personal and information safe. Petitioner until now is suffering
from severe PTSD. Petitioner obtained several certificates of appreciations and recommendation
letter show his faithful works in these camps and is attaching copies within as Appendixes for
this Court to review (Appendixes U, V & W).
Ill) CONCLUSION
Petitioner pries to this Court to please look at his case with eyes of mercy and kindness upon
him and permit him a chance to defend himself in the United States Courts, that he be provided
with copy of his state habeas transcripts hearing with instruction that new district judge be

13

assigned to his case in light of Judge Lange’s multiple misconduct of lying about the existence of
these transcripts and his ignorance about the proceeding of habeas corpus cases, and Judge
Lange’s two contradicted opinions in order to deny Petitioner any relief pursuant to this Court
authority under USCS Supreme Ct. R. 10(c) and R. 16.1 and this Court opinion regarding
reversal under violation of procedural rules in Dep 7. of Homeland Sec. v. Thuraissigiam, 140 S.
Ct. 1595, 207 L. Ed. 2d 427 (2020).
Respectfully Submitted.
Dated this 2nd day of February, 2021.

Haider Salah Abdulrazzak, # 04373
Mike Durfee State Prison
1412 Wood Street,
Springfield, SD 57062-2238
Petitioner/ Pro Se

14

